April 15, 2021
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543-0001
Re:

No. 20-1066, Hoggard v. Rhodes

Dear Mr. Harris:
Pursuant to the Court’s March 19, 2020 order, Petitioner respectfully
requests that the Court delay distribution of the petition for writ of certiorari until
April 27, 2021, for consideration at the Court’s conference on May 13, 2021. The
petition for writ of certiorari was filed and placed on the Court’s docket on January
28, 2021. After the Court granted one 30-day extension, Respondents’ brief in
opposition was filed on April 7, 2021. Pursuant to Supreme Court Rule 15.5, absent
the requested delay, the petition, brief in opposition, and reply brief would be
distributed on April 21, 2021, also for consideration at the May 13 conference. So
delay in distribution to April 27 would not delay the Court’s consideration of the
petition at all.
Counsel for Petitioner seeks a 6-day extension due to the restrictions
currently being experienced because of COVID-19 combined with the press of
numerous other litigation deadlines. Among many other matters, Petitioner’s
counsel has the following upcoming litigation deadlines:
•

A merits reply brief in this Court on April 19, 2021 (Thomas More Law
Center v. Rodriquez, No. 19-255);

•

Extensive preparations as co-lead counsel in support of oral argument
in this Court on April 26, 2021 (consolidated cases Thomas More Law
Center v. Rodriquez, No. 19-255 and Americans for Prosperity
Foundation v. Rodriquez, No. 19-251);

•

An amicus brief in this Court on May 3, 2021 (Box v. Planned
Parenthood of Indiana and Kentucky, Inc., No. 20-1375);

Honorable Scott S. Harris
April 15, 2021
Page 2

•

Preparations in support of oral argument in the United States Court of
Appeals for the Ninth Circuit on May 3, 2021 (Hecox v. Little, Nos. 2035813 and 20-35815);

•

Preparations in support of oral argument in the United States Court of
Appeals for the Fourth Circuit on May 7, 2021 (Vlaming v. West Point
School Board, No. 20-1940);

•

Preparations in support of oral argument in the United States Court of
Appeals for the Eighth Circuit on May 11, 2021 (Young America’s
Foundation v. Kaler, No. 20-3029);

•

Preparations in support of oral argument in the United States Court of
Appeals for the Eighth Circuit on May 13, 2021 (Thayer v. Planned
Parenthood of the Heartland, Inc., No. 20-2151); and

•

An amicus brief in this Court on May 13, 2021 (Rutledge v. Little Rock
Family Planning Services, No. 20-1434).

Respondents do not object to this extension.
For these reasons, Petitioner requests that the Court delay distribution of the
petition for writ of certiorari until April 27, 2021.
Respectfully Submitted,
s/John J. Bursch
John J. Bursch
Counsel for Petitioner
Service List:
David C. Frederick
Kellogg, Hansen, Todd, Figel & Frederick, PLLC
1615 M Street, NW, Suite 400
Washington, DC 20036-3209
dfrederick@kellogghansen.com

